No.

JUAN LUIS RIVERA ARREOLA, PETITIONER
V.

UNITED STATES OF AMERICA

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

COMES NOW, Petitioner Juan Rivera Arreola, and respectfully requests leave to
file the attached petition for a writ of certiorari without prepayment of costs and to
proceed in Jonna pauperis.

Petitioner represents, through undersigned counsel,

represents that she has previously been granted leave to proceed in forma pauperis in the
United States Court of Appeals for the Fifth Circuit and the United States District Court
for the Eastern District of Texas under the Criminal Justice Act of 1964, 18 U.S.C. ยง
3006(A). Undersigned counsel represented Petitioner before the Fifth Circuit.

RESPECTFULLY SUBMITTED,

~-- ~~0

Don Bailey
Attorney for Petitioner
309 N. Willow
Sherman, Texas 75090
(903) 892-9185

